AMERICA’S FIRST FEDERAL CREDIT UNION CREDIT CARD AGREEMENT
Visa® Secured Credit Card Agreement

In this Agreement the words “you” and “your” means each person responsible for
paying this Account. “Card” means the Visa SECURED CREDIT CARD.
“Account” means your Visa SECURED Credit Card Account with us. “We,” “us”
and “our” means America's First Federal Credit Union, its successors and
assigns.
1. RESPONSIBILITY. You agree to be jointly and severally bound by all terms
and conditions in this Agreement and on the Card if you use your Card or permit
others to do so including convenience checks that we may provide to you. You
promise to repay all purchases, cash advances and balance transfers which are
posted to your account. You also promise to pay all finance charges, fees,
including an Annual Fee if applicable to your account and other charges
assessed on your Account or under this Agreement. Your payments must be in
U.S. Dollars from a U.S. financial institution. You will pay no less than the
minimum monthly payment as indicated on your statement each month. If you
make extra or larger payments, you are still required to make at least the
minimum monthly payment each month that your account has a balance. The
minimum monthly payment for your account shall be the greater of 2% of your
outstanding balance or $10.00.
2. LOST CARD NOTIFICATION. If you believe the Card has been lost or
stolen, you will immediately call us at 1-800-325-3678. Twenty Four hours a day.
Seven days a week.
3. AUTHORIZED AND UNAUTHORIZED USE OF THE CARD. You may use
your card to obtain cash advances, purchases or balance transfers. You will be
jointly and severally liable for all authorized use of your Card, for all credit
extended by us in connection with your Card, regardless of your credit limit. You
may be liable for the unauthorized use of your Card. You will not be liable for
unauthorized use that occurs after you notify us orally or in writing of the loss,
theft or possible unauthorized use in a timely manner. In any case, your liability
will not exceed $50.00. You agree to assist us in ascertaining the facts and
circumstances relating to any unauthorized use of the Card. You may not use
the Card for any illegal or unlawful transaction, including but not limited to
internet gambling, and we may decline to authorize any transaction that we
believe to be unlawful. The use of the Card to perform an illegal transaction is a
condition of default and we may terminate your right to use the account and you
agree to indemnify us for any losses suffered as a result of the illegal activity.
4.CREDIT INFORMATION. You authorize us to investigate your creditworthiness
when opening, renewing or reviewing your Account. Upon our request, you
agree to update any credit information you have previously furnished us. You
also authorize us to request and provide information concerning your credit
history from and to other creditors and credit reporting agencies.
5. CREDIT LIMIT. A credit limit will be assigned to you by us and will be
determined by the information submitted on your credit application, and by other
credit information received by us. You may not allow the balance of your
account to exceed the approved credit limit. We may in our discretion, allow
advances from your account in excess of your credit limit, and these advances
are subject to all the provisions of this Agreement. You agree to repay any
amount over your credit limit immediately upon demand. The credit limit
applicable to your account will be disclosed on each monthly statement and is
subject to change without notice to you.
6. DESIGNATED CREDIT UNION SHARE ACCOUNT. You agree to maintain a
Designated Credit Union Share account with a minimum balance equal to the
credit limit established for your account. You understand and agree that shares
pledged as security will earn dividends at the rate for similar accounts. You
pledge under the Uniform Commercial Code, the Share Account listed on the
America’s First Federal Credit Union Secured Visa Platinum Credit Card
Application to the credit union as security for any balance owed on your account.
If you request a higher credit limit in the future, you understand and agree that
you will be required to deposit additional funds in the Share Account equal to the

amount of the increase you requested and the credit union will holds this
amount, in addition to the amount already held in the Share Account. You
understand and agree the pledged funds will not be accessible for withdrawal
and you agree not to withdraw or attempt to withdraw pledged funds until the
account has been closed and any cards issued to you have been returned. You
understand and agree that pledged funds may be held for up to 30 days after
you have closed your account. You understand and agree that if you dispute any
charges owed to the credit union, you will not rescind this agreement until any
such disputes are resolved. You understand and agree that the credit union may
transfer pledged funds from the pledged Share Account at any time if this
account is delinquent, inactive or if we suspend or terminate your credit
privileges. Upon any of these occurrences, the Share Account and the credit
card account will be closed. Any remaining funds in the pledged Share Account
will be transferred to your primary Share account, or otherwise paid to you via
check, cash or any other method at our option.
7. SURRENDER OF CARD. The Credit Card remains the property of the Credit
Union. Notwithstanding the expiration date on the Credit Card, your right to use
the Credit Card may be cancelled or terminated for any reason. You must
surrender the Card immediately to us or to our agent upon demand.
8. FINANCE CHARGE. If you have a zero purchase balance at the beginning
of the statement cycle you can avoid a finance charge on purchases billed
during the cycle by paying the new balance of Purchases within 25 days of the
statement closing date. Otherwise, purchases will be subject to a finance charge
from the date they are posted to the account. Finance charges are calculated at
the periodic rate and Annual Percentage Rate disclosed to you on the average
daily balance of purchases and cash advances posted to your account. Any
finance charge we add to your Account is the amount payable as a condition of
credit. Finance charges do not include (1) fees for participation or membership
in the card program, (2) fees for late payments, (3) if you agree, fees for
exceeding your credit limit, or (4) any other fees applicable to your account
including the failure to comply with the terms and conditions of your account.
Except for the Grace Period for purchases or minimum finance charge described
in your Truth in Lending disclosure, you are charged finance charges each
month for any part of the credit that was extended to you that remains unpaid as
of the statement date. A finance charge is imposed on cash advances and
balance transfers from the day they are posted to your account. You can pay all
or any part of your Account balance at any time without any prepayment penalty.
9. DEFAULT. You will be in default if you exceed your line of credit, fail to pay
any sum when it is due, die, file a petition in Bankruptcy Court or become
insolvent, or if you fail to comply with any of the terms or conditions of this
Agreement. If we, for good cause, should deem ourselves insecure, then we
may without prior notice and in our sole discretion, do any or all of the following:
(1) terminate this Agreement and revoke your right to use the Card, (2) declare
the entire balance of your Account due and payable, (3) refuse to honor further
Card transactions, or (4) apply any shares or other property you have pledged
as security for this Agreement against the amount you owe under this
Agreement pursuant to paragraph 6 above.
10. MISCELLANEOUS. You agree to notify us in writing of any change in your
name, address or employment. You agree not to permit the use of the Card if
you know that credit privileges have been terminated or suspended. You will
notify us immediately if you believe any unauthorized use of the Card has or may
have occurred, and you will assist us in any related investigation. You will notify
us immediately upon the loss or theft of the Card. Neither we nor any of our
processors, agents or servants are responsible if anyone refuses to honor the
Card. This Agreement and all transaction made pursuant hereto shall be
governed by the laws of the State of Alabama except as preempted by the laws
of the United States. If there is any conflict between the provisions of this
Agreement and those of any sales draft, cash advance slip or other documents
Page 1 of 3

you sign or authenticate in connection with the use of the Card, the provisions of
the Agreement shall control. If more than one person signed your Card
Agreement, they are also bound hereunder. No delay by us in exercising any of
our rights under this Agreement will be a waiver of that right or any other right.
11. CHANGE IN TERMS. We may change any term or part of the Credit Card
Agreement, allowed by law, including finance charges, rates, fees, or method of
computing any balance upon which the finance charge is assessed by sending
you written notice as required by law. Any such changes will only apply to new
charges made after that date. If you do not agree to the change in terms, you
must notify us in writing before the effective date of the Change in Terms that is
provided to you to the address provided in the notice of change, and your
account will be closed to additional transactions and you must pay us the
balance that you owe us under the existing terms of the unchanged Credit Card
Agreement. Otherwise, you will have agreed to the change in the notice. Use of
the Credit Card after the effective date of the change shall be deemed
acceptance of the new terms as to such effective date, even if you had
previously notified us that you did not agree with the change.
12. TERMINATION. Subject to applicable laws and regulations, we may, in our
sole discretion, terminate this Agreement and your right to use your Card at any
time. You may terminate this Agreement with respect to future transactions, but
you will remain liable for payment of all amounts due under this Agreement prior
to the termination.
13. SECURITY INTEREST. In addition to Paragraph 6 above, to secure your
account, you hereby pledge all shares and/or deposits including amounts in draft
accounts and payments and earnings thereon which you now or hereafter may
have with us, whether held individually, jointly or in trust, as security for any and
all amounts owed by the use of your Card and any interest or fees accrued
thereon. Upon default, you authorize us to take what you owe us out of any
deposit accounts (except Individual Retirement Accounts) you have with us.

14. FOREIGN TRANSACTIONS. If you make a transaction in a foreign
currency, it will be converted into a U.S. Dollar amount. The exchange rate for
transactions in a foreign currency will be a rate selected by Visa or MasterCard
from the range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate Visa or
MasterCard receives, or the government mandated rate in effect for the
applicable central processing date, plus 1%.
15. LIMITATIONS ON USE OF YOUR CARD. Payments of $500.00 or more
will result in a five-day delay before any additional credit limit is made available
for subsequent purchases or cash advances. There is a daily limit of $10,000.00
for purchases and a daily limit of $5,000.00 for cash advances if allowed by your
credit limit.
16. NOTICES. Except as otherwise provided in the Agreement, all notices are
to be given in writing. All notices given by us to you shall be deemed given when
deposited in the United States Mail, first class postage prepaid, and addressed
to the last known address in our records of the Account Holder whose name
appears first on your Credit Card Agreement. All notices to us by you shall be
deemed given when we receive them.
17. COLLECTION COSTS & ATTORNEY FEES. You agree to pay all cost of
collecting the amount you owe under this Agreement including a reasonable
attorney’s fee if the unpaid balance exceeds $300.00 and the matter is referred
to an attorney who is not a salaried employee of the Credit Union.
18. TRUTH IN LENDING DISCLOSURE. The additional terms and conditions
that appear in the Truth in Lending Disclosure provided to you are incorporated
herein and made a part of this agreement.
19. INVALIDITY OF PROVISIONS AND CAPTIONS. If any provision of this
Agreement is deemed to be invalid the remaining provisions will remain in full
force and effect. The paragraph headings are for convenience only and do not
form a part of this Agreement.

Important information concerning your rights and our responsibilities is printed on the next page.
Visa Share Secured Rev. 08/2014

Page 2 of 3

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

•

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
America’s First Federal Credit Union
P.O. Box 11349
Birmingham, Alabama 35202
You may also contact us on the Web at: www.amfirst.org
In your letter, give us the following information:
• Account Information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing or
electronically. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related to
that amount.

Toll Free: 1-800-633-8431, ext. 4170

If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we
think you owe.

If you receive our explanation but still believe that your bill is
wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you have the right not to
pay the remaining amount due on the purchase. To use this right,
all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or
services.)
2.

You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.

3.

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing or electronically at:
America’s First Federal Credit Union
P.O. Box 11349
Birmingham, Alabama 35202
www.amfirst.org
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.

Local: 205-320-4170

Page 3 of 3

